1301 Pennsylvania Avenue NW
Washington, D.C. 20004
United States

Paul D. Clement
To Call Writer Directly:
+1 202 389 5013
paul.clement@kirkland.com

Facsimile:
+1 202 389 5200

+1 202 389 5000
www.kirkland.com

January 6, 2020
Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street NE
Washington, DC 20543
Re:

Facebook, Inc. v. Duguid, No. 19-511

Dear Mr. Harris:
On behalf of petitioner, I write to waive the 14-day waiting period under rule 15.5 and
respectfully request that this petition be set for distribution on January 8, 2020. The United States
previously filed a responsive brief in this case, and petitioner filed a reply brief addressing the
United States’ brief on December 2, 2019. The Court called for a response from the plaintiffrespondent on December 4, 2019, and the plaintiff-respondent has now filed a brief in opposition.
Petitioner anticipates promptly filing a reply brief explaining why the Court should grant plenary
review on both questions presented, but in the event the Court does not receive the reply brief by
January 8, petitioner requests that the petition be distributed without it.
Prompt distribution will help ensure that the Court can consider this petition in connection
with the petitions in Barr v. American Association of Political Consultants, Inc., No. 19-631 and
Charter Communications, Inc. v. Gallion, No. 19-575, which have been distributed for the
Conference of January 10, 2020. As indicated in petitioner’s November 25, 2019 letter, this Court
would benefit from being able to consider this petition at the same time as those two petitions,
which each presents only the constitutional issue, as this case provides an opportunity to resolve
both the constitutional issue and the related and logically anterior statutory question.
Sincerely,

Paul D. Clement

Beijing

Boston

Chicago

Dallas

Hong Kong

Houston

London

Los Angeles

Munich

New York

Palo Alto

Paris

San Francisco

Shanghai

